No. 19-1257
IN THE

Supreme Court of the United States
_________

MARK BRNOVICH, ET AL.,
v.

Petitioners,

DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents,
_________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
_________
AMICI CURIAE BRIEF OF JUDICIAL WATCH,
INC. AND ALLIED EDUCATIONAL
FOUNDATION IN SUPPORT OF PETITIONERS
_________
ROBERT D. POPPER
T. RUSSELL NOBILE
ERIC W. LEE
JUDICIAL WATCH, INC.
425 Third Street, SW
Suite 800
Washington, DC 20024
(202) 646-5172

H. CHRISTOPHER COATES
Counsel of Record
LAW OFFICES OF H.
CHRISTOPHER COATES
934 Compass Point
Charleston, South
Carolina 29412
Phone: (843) 609-7080
curriecoates@gmail.com

Dated: June 1, 2020
LEGAL PRINTERS

LLC

! Washington, DC ! 202-747-2400 ! legalprinters.com

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES ..................................... iii
INTERESTS OF THE AMICI CURIAE .....................1
RELEVANT FEDERAL STATUTE ...........................2
SUMMARY OF ARGUMENT.....................................3
ARGUMENT ...............................................................6
THE NINTH CIRCUIT ERRED BECAUSE ITS
FINDINGS OF DISCRIMINATORY RESULTS
UNDER SECTION 2 OF THE VRA WERE NOT
SUPPORTED
BY
EVIDENCE
THAT
THE
CHALLENGED VOTING PROCEDURES CAUSED
RACIAL
MINORITIES
TO
HAVE
LESS
OPPORTUNITY TO PARTICIPATE IN THE
POLITICAL
PROCESS
AND
TO
ELECT
REPRESENTATIVES OF THEIR CHOICE ..............6
I.

Courts Use A Two-Step Framework In
Analyzing Whether A Section 2 Results Claim
Has Been Proven. .............................................6

II.

There Are Substantial Conflicts Within and
Among
The
Circuits
Regarding
The
Appropriate Way To Determine Whether The
Two-Step Test Has Been Satisfied. .................8

III.

Plaintiffs Failed To Prove That Arizona’s Outof-Precinct (OOP) Rule Caused Minority Voters
To Have Less Opportunity To Participate In

ii
The Political Process And To Elect
Representatives Of Their Choice. ..................15
IV.

Plaintiffs Failed To Prove That Arizona’s H.B.
2023 Procedure That Restricts Ballot
Collection and Delivery By Third Parties
Caused Minority Voters To Have Less
Opportunity To Participate In The Political
Process And To Elect Representatives Of Their
Choice. .............................................................19

CONCLUSION ..........................................................25

iii
TABLE OF AUTHORITIES
Cases

Page(s)

Chisom v. Roemer, 501 U.S. 380 (1991) .....................7
Crawford v. Marion Cnty. Election Bd.,
553 U.S. 181 (2008) .......................... 1, 23, 24, 25
Democratic Nat’l Comm. v. Hobbs,
948 F.3d 989 (9th Cir. 2020) .................... passim
Democratic Nat’l Comm. v. Reagan,
904 F.3d 686 (9th Cir. 2018) .............................4
Democratic Nat’l Comm. v. Reagan,
329 F. Supp. 3d 824 (D. Ariz. 2018) .............4, 17
Frank v. Walker, 768 F.3d 744 (7th Cir. 2014) ..10, 11
Gonzalez v. Arizona,
677 F.3d 383 (9th Cir. 2012) ................ 13, 14, 21
Husted v. Ohio State Conference of NAACP,
573 U.S. 988 (2014) ............................................9
Irby v. Va. State Bd. of Elections,
889 F. 2d 1352 (4th Cir. 1989) .........................12
League of Women Voters of N.C. v. North Carolina,
769 F.3d 224 (4th Cir. 2014) ......................11, 12

iv
Lee v. Va. State Bd. of Elections,
843 F.3d 592 (4th Cir. 2016) ............................12
North Carolina v. N.C. State Conf. of the NAACP,
137 S. Ct. 1399 (2017) ........................................2
Ohio Democratic Party v. Husted,
834 F.3d 620 (6th Cir. 2016) ................ 2, 7, 9, 10
Ohio State Conference of NAACP v. Husted,
768 F.3d 524 (6th Cir. 2014) ..............................9
Ohio State Conference of NAACP v. Husted,
2014 U.S. App. LEXIS 24472
(6th Cir. Oct. 1, 2014) ................................... 9-10
Ruiz v. City of Santa Maria,
160 F.3d 543 (9th Cir. 1998) ............................14
Smith v. Salt River Project Agricultural
Improvement & Power District,
109 F.3d 586 (9th Cir. 1997) ......................14, 21
Thornburg v. Gingles, 478 U.S. 30 (1986) ........ passim
Veasey v. Abbott, 830 F.3d 216 (5th Cir. 2016) ........13
Federal Statutes
52 U.S.C. § 10301 .............................................. passim
Other Authorities
S. Rep. No. 97-417 (1982) ........................................7, 8

v
“Election Fraud in North Carolina Leads to New
Charges for Republican Operative,”
The
New
York
Times,
available
at
https://www.nytimes.com/2019/07/30/us/mccrae
-dowless-indictment.html .................................24

1
IDENTITY AND INTERESTS
OF AMICI CURIAE 1
Judicial Watch, Inc. (“Judicial Watch”) is a
non-partisan,
public
interest
organization
headquartered in Washington, D.C. Founded in 1994,
Judicial Watch seeks to promote accountability,
transparency and integrity in government, and
fidelity to the rule of law. Judicial Watch regularly
files amicus curiae briefs and lawsuits related to
these goals.
As part of its election integrity mission,
Judicial Watch has a substantial interest in the
proper enforcement of Section 2 of the Voting Rights
Act (VRA), 52 U.S.C. § 10301(a) and (b). After this
Court’s decision in Crawford v. Marion Cnty. Election
Bd., 553 U.S. 181 (2008), upholding Indiana’s voter
identification law, election integrity laws, like
Arizona’s laws here, have been increasingly subject to
challenge under Section 2 of the VRA.
The Allied Educational Foundation (“AEF”) is
a nonprofit charitable and educational foundation
based in Englewood, New Jersey. Founded in 1964,
AEF is dedicated to promoting education in diverse
areas of study. AEF regularly files amicus curiae
1

Judicial Watch states that no counsel for a party to this
case authored this brief in whole or in part; and no person or
entity, other than amici and their counsel, made a monetary
contribution intended to fund the preparation and submission of
this brief. Judicial Watch sought and obtained the consent of all
parties to the filing of this amici curiae brief.

2
briefs as a means to advance its purpose and has
appeared as an amicus curiae in this Court on many
occasions.
Amici have submitted several briefs before
district courts, courts of appeals, and this Court,
regarding the proper role of Section 2 in vote denial
cases. See Brief of Amici Curiae Judicial Watch, Inc.
and Allied Educational Foundation, Ohio Democratic
Party v. Husted, No. 16-3561, Dkt. Entry 43 (6th Cir.)
(Section 2 challenge to Ohio’s early voting policy);
North Carolina v. N.C. State Conf. of the NAACP, 137
S. Ct. 1399 (2017) (No. 16-833) (Section 2 challenge to
North Carolina election laws). Since courts of appeals
have gone different ways on the issue, including the
Ninth Circuit here, this Court’s intervention is
desperately needed.
For the foregoing reasons, amici respectfully
request this Court grant petitioners’ writ of certiorari.
RELEVANT FEDERAL STATUTE
Section 2 of the VRA, as amended in 1982,
provides,
(a) No voting qualification or
prerequisite to voting or standard,
practice or procedure shall be imposed
or applied by any state or political
subdivision in a manner which results
in a denial or abridgement of the right
of any citizen of the United States to
vote on account of race or color, or in

3
contravention of the guarantees set
forth in section 10303(f)(2) of this title,
as provided in subsection.
(b) A violation of subsection (a) is
established if, based on the totality of
circumstances it is shown that the
political
processes
leading
to
nomination or election in the State or
political subdivision are not equally
open to participation by members of a
class of citizens protected by subsection
(a) in that its members have less
opportunity than other members of the
electorate to participate in the political
process and to elect representatives of
their choice: Provided, That nothing in
this section establishes a right to have
members of a protected class elected in
numbers equal to their proportion in
the population.
52 U.S.C. Section 10301 (emphasis added).
SUMMARY OF ARGUMENT
In this brief, the arguments presented are
focused upon Plaintiffs’ statutory claims under the
Voting Rights Act (VRA) that arise under Section 2’s
discriminatory results standard.
In this case, Plaintiffs challenged two of
Arizona’s neutral regulations designed to protect the
integrity of its elections: restrictions on “out-of-

4
precinct” (OOP) voting and the third-party collection
and delivery of early ballots. Plaintiffs alleged a host
of violations of federal statutory and constitutional
provisions, including violations of both the
discriminatory results and intent standards of
Section 2 of the VRA. After a 10-day bench trial in
which seven expert witnesses and thirty-three lay
witnesses were heard, the district court ruled in favor
of Arizona on all claims. Democratic Nat’l Comm. v.
Reagan, 329 F. Supp. 3d 824, 833-38 (D. Ariz. 2018).
The Ninth Circuit panel affirmed. Democratic Nat’l
Comm. v. Reagan, 904 F.3d 686 (9th Cir. 2018).
But the Ninth Circuit reversed. In a sharply
divided en banc decision, it found that Arizona’s OOP
and third-party ballot collection laws were enacted
with discriminatory purpose and had discriminatory
results, in violation of Section 2. Democratic Nat’l
Comm. v. Hobbs, 948 F.3d 989, 998 (9th Cir. 2020)
(Hobbs). Instead of analyzing whether Arizona’s
election laws caused less opportunity to participate in
the political process, the Ninth Circuit adopted the
faulty argument that disparate impact plus Senate
Factor evidence is sufficient to show a Section 2
violation.
In applying Section 2’s results standard in vote
denial cases, courts have developed a two-step
analysis. First, courts ask whether the evidence
indicates that the challenged voting procedures have
caused minority voters to have “less opportunity to
participate in the political process and to elect
representatives of their choice.” Plaintiffs utterly
failed to adduce evidence that satisfied this Step One

5
requirement of causation, i.e., that the challenged
voting procedure caused minorities to have less
opportunity to participate in the political process and
to elect representatives of their choice.
Instead, Plaintiffs showed Arizona’s laws had a
disparate impact upon minority voters in comparison
to white voters. That is to say, the evidence showed
that more minorities than whites voted OOP and
whites relied less on third parties to collect and
deliver their early ballots than non-whites. But in a
Section 2 “results” case, disparate impact alone is not
sufficient to show a violation. In light of this failure
of proof, Plaintiffs in this case did not satisfy the Step
One causation requirement, and because of this, their
Section 2 discriminatory results claims must fail.
The Ninth Circuit erred when it proceeded to
the next step of the Section 2 analysis, determining
whether the Senate Factors provide evidence of
discriminatory results. In a Section 2 “results” case,
courts may only look to the Senate Factors if they first
find causation. But the Ninth Circuit strayed far from
this two-step process by inquiring whether there was
a relationship between the challenged procedures and
the social and historical conditions that are described
in the Senate Factors without first finding causation.
In doing so, the en banc majority determined that
Senate Factors, weighed in the “totality of the
circumstances,” favor Plaintiffs, and then held that
the evidence of disparate impact of the challenged
procedures plus Senate Factor evidence proved that
the challenged procedures violated Section 2’s results
standard.

6
The Ninth Circuit’s holding is in conflict with
several circuits on plaintiffs’ burden of proof to show
a violation of Section 2’s results standard, and the
method of doing so. Specifically, these conflicts
concern whether plaintiffs are first required to prove
causation and the analysis courts must use in
weighing the Senate Factors. The Court’s
intervention is needed.
ARGUMENT
THE NINTH CIRCUIT ERRED BECAUSE ITS
FINDINGS OF DISCRIMINATORY RESULTS
UNDER SECTION 2 OF THE VRA WERE NOT
SUPPORTED BY EVIDENCE THAT THE
CHALLENGED
VOTING
PROCEDURES
CAUSED RACIAL MINORITIES TO HAVE LESS
OPPORTUNITY TO PARTICIPATE IN THE
POLITICAL PROCESS AND TO ELECT
REPRESENTATIVES OF THEIR CHOICE.
I.

Courts Use A Two-Step Framework
In Analyzing Whether A Section 2
Results Claim Has Been Proven.

In determining whether a voting practice or
procedure violates Section 2’s results standard, courts
have developed a two-step analysis. Hobbs, 948 F.3d
at 1012 (collecting cases). “[T]he first element of
the Section 2 claim requires proof that the challenged
standard or practice causally contributes to the
alleged discriminatory impact by affording protected
group members less opportunity to participate.” Ohio
Democratic Party v. Husted, 834 F.3d 620, 637-38 (6th

7
Cir. 2016); see also Chisom v. Roemer, 501 U.S. 380,
397 (1991). Plaintiffs must show a causal connection
between the challenged voting practice and a
prohibited discriminatory result. Hobbs, 948 F.3d at
1012. Then, and only then, should the court inquire
into whether the discriminatory result is linked to
“social and historic conditions,” set forth in the Senate
Factors (S. Rep. No. 97-417) at 28-29 (1982). Hobbs,
948 F.3d at 1012-14. If plaintiffs do not carry their
burden in showing causation, courts need not proceed
to analyze the Senate Factors under the “totality of
the circumstances.” Id. See also, Husted, 834 F.3d at
638 (“If this first element is met, the second step
comes into play.”)
In this case the Ninth Circuit en banc erred in
not correctly applying this two-step approach. Hobbs,
948 F.3d at 1012. The court correctly noted the first
step is to ask whether “as a result of the challenged
practice or structure[,] plaintiffs do not have an equal
opportunity to participate in the political processes
and to elect candidates of their choice.” Id. (quoting
Thornburg v. Gingles, 478 U.S. 30, 44 (1986)). If it is
determined that the challenged practice causes a lack
of equal opportunity for minorities, courts proceed to
Step Two and inquire into whether “there is a
relationship between the challenged ‘standard,
practice, or procedure,’ . . . and ‘social and historical
conditions’” as described in the Senate Factors. Id. at
1012-14; see also (S. Rep. No. 97-417) at 28-29 (1982). 2
In Judge O’Scannlain’s dissenting opinion he states,
“[t]hese [Senate] factors—and the majority’s lengthy history
lesson . . . simply have no bearing on this case. Indeed, . . . [these
portions] of the majority’s opinion may properly be ignored as

2

8
However, if it is determined that Step One has
not been satisfied, courts do not proceed to Step Two
and judgment must be entered for defendants. Hobbs,
948 F.3d at 1012. The en banc majority acknowledged
the appropriateness of using the two-step analysis
here, but then failed, as described in detail below, to
require in Step One specific evidence showing that
minorities, as a result of the challenged procedures,
had “less opportunity to participate” and “elect
representatives of their choice.” Id. at 1012-14, 1043.
II.

There Are Substantial Conflicts
Within and Among The Circuits
Regarding The Appropriate Way To
Determine Whether The Two-Step
Test Has Been Satisfied.

In the seminal case of Thornburg v. Gingles,
this Court made clear that to prevail in a
discriminatory results claim under Section 2, it is
necessary for plaintiffs to prove that because of the
challenged voting procedure, minority voters are
“experienc[ing]
substantial
difficulty
electing
representatives of their choice.” 478 U.S. at 48 n.15.
Various courts have interpreted the Section 2 results
standard in different ways.
In the Sixth Circuit, the proper evidentiary
requirement was applied in Ohio Democratic Party v.
Husted, 834 F.3d 620 (6th Cir. 2016). There, the
plaintiffs challenged Ohio’s rule to reduce early voting
irrelevant” because Plaintiffs did not satisfy Step One. Hobbs,
948 F.3d at 1057.

9
days and to eliminate same day registration. Id. at
624. African Americans voted during the earlier
voting days and used same day registration “at a rate
higher than other voters.” Id. at 627-28. The Sixth
Circuit noted that Section 2 requires “proof that the
challenged practice causally contributes to the alleged
discriminatory impact by affording protected group
members less opportunity to participate.” Id. at 637.
Then it ruled that the challenged procedures in
Husted did not “caus[e] racial inequality in the
opportunity to vote.” Id. at 638, citing Gingles, 478
U.S. at 43-47. Without there being a difference in
“opportunity,” the “existence of a disparate impact” in
the rate at which minorities and whites vote cannot
“establish the sort of injury that is cognizable and
remediable under Section 2.” Id. at 637. (citation
omitted)
Further, in its 2016 opinion in Husted the Sixth
Circuit made abundantly clear what is not required
for a Section 2 results analysis. The 2016 Husted
court was critical of the Section 2 analysis in the
vacated 2014 Husted decision relied on by the Ninth
Circuit’s en banc majority. 3 Husted, 834 F.3d at 638To be clear, the en banc majority relied on the decision
reported at Ohio State Conference of NAACP v. Husted, 768 F.3d
524 (6th Cir. 2014). The injunction obtained there was stayed
by this Court. Husted v. Ohio State Conference of NAACP, 573
U.S. 988 (2014). It was then vacated in Ohio State Conference of
NAACP v. Husted, 2014 U.S. App. LEXIS 24472 (6th Cir. Oct. 1,
2014). This vacated case was cited numerous times in the en
banc majority opinion as precedent for how to determine
whether the Section 2 results test has been satisfied. See Hobbs,
948 F.3d at 1012, 1013-14, 1017, 1033. However, the controlling
law in the Sixth Circuit, as now set out in Ohio Democratic Party
3

10
40. More specifically, it noted that the 2014 Husted
opinion’s use of the Senate Factors
could be erroneously misunderstood to
mean that an alleged disparate impact
that is linked to social and historical
conditions make out a Section 2 violation
. . . [I]f the second step is divorced from
the first step requirement of causal
contribution by the challenged standard
or practice itself, it is incompatible with
the text of Section 2 and incongruous
with Supreme Court precedent.
Id. at 638. In light of this warning by the 2016 Husted
court, it is particularly troubling that the en banc
majority in Hobbs relied exclusively upon the 2014
Husted opinion while neglecting to mention the 2016
Husted opinion at all.
The Seventh Circuit applied the same
causation requirement in Frank v. Walker, 768 F.3d
744 (7th Cir. 2014). The court there found that
plaintiffs failed to prove their claim that Wisconsin’s
voter ID law had a discriminatory result on minority
voters. Id. at 752. In doing so Frank reasoned that
the fact that minorities “do not get photo IDs at the
same frequency as whites” does not show unequal
voter opportunity, only unequal outcomes. Id. at 753.
The court noted that the Section 2 results standard

v. Husted, 834 F.3d 620 (6th Cir. 2016), is not referenced at all
in the majority opinion, and it is the case upon which amici
curiae rely.

11
“does not condemn a voting practice just because it
has a disparate effect.” Id.
The Fourth Circuit, like Hobbs, has moved
away from requiring causation to prove a Section 2
results claim and appears to be in intra-circuit
conflict on this central point. In League of Women
Voters (LWV) of N.C. v. North Carolina, 769 F.3d 224
(4th Cir. 2014), plaintiffs challenged North Carolina’s
prohibition against counting OOP ballots on the
grounds that it violated the Section 2 results
standard. Id. at 245. In reversing the district court’s
denial of plaintiffs’ motion for preliminary injunction,
the Fourth Circuit did not require proof that North
Carolina’s OOP policy caused minorities to have “less
opportunity
to
participate”
and
“to
elect
representatives of their choice.” Id. at 245, 248-49.
Instead, the court applied a disparate impact analysis
in conjunction with the Senate Factor evidence to
support a Section 2 results claim. Id. at 243, 245. 4
This approach is the same analysis used by the en
banc majority here (i.e., disparate impact plus proof of
Senate Factors equals discriminatory results).
Hobbs, 948 F.3d at 1012-14, 1043. The text of Section
Importantly, the en banc majority in this case understood
LWV to strike “down a state statute that would have prevented
the counting of OOP ballots . . . without inquiring into whether
the number of affected ballots was likely to affect election
outcomes.” Hobbs, 948 F.3d at 1043 (emphasis added). By
referring to this language in LWV as the standard in Section 2
“results” cases, the en banc majority clearly showed that, in its
reliance upon LWV, it did not require Plaintiffs in this case to
show that the challenged procedures, including the OOP rule,
caused minority voters not to be able to participate equally and
elect representatives of choice. Id. at 1043.
4

12
2 and Gingles does not authorize disparate impact
plus proof of Senate Factors as being sufficient to
prove discriminatory results when plaintiffs cannot
show that the challenged law causes minorities to
have less opportunity to participate in the political
process. Quite simply, this approach does not comply
with the Step One inquiry used in Section 2 “results”
cases. 5
But two years after LWV, the Fourth Circuit
went the other way, creating a split within its own
circuit. In Lee v. Va. State Bd. of Elections, 843 F.3d
592 (4th Cir. 2016), the court upheld Virginia’s voter
ID law on the grounds that all Virginia voters were
“afforded an equal opportunity to obtain a free voter
ID.” Id. at 600. The fact that “a lower percentage of
minorities ha[d] qualifying photo IDs” (i.e., disparate
impact) was not deemed by the Fourth Circuit to be
sufficient to establish a discriminatory result under
Section 2. Id. Lee held the plaintiffs “simply failed”
to prove that the challenged voter ID law caused
minorities “less opportunity than others to” vote (id.
at 598, 600) falling in line with precedents in the
Sixth and Seventh Circuits. See also, Irby v. Va. State
Bd. of Elections, 889 F. 2d 1352, 1358-59 (4th Cir.
1989) (upholding the challenged procedure where the
evidence “cast considerable doubt on . . . a causal link
between the appointive system and Black
underrepresentation”).

Of course, under the two-step analysis, Senate Factor
evidence is not relevant in this case because Plaintiffs failed to
adduce evidence of causation. Hobbs, 948 F.3d at 1057
(O’Scannlain, J. dissenting).
5

13
Unlike Lee in the Fourth Circuit, Husted in
2016 in the Sixth Circuit, and Frank in the Seventh
Circuit, the Fifth Circuit adopted a different method
of analyzing Section 2 violations. In Veasey v. Abbott,
830 F.3d 216 (5th Cir. 2016) (en banc), the Fifth
Circuit found that the challenged Texas voter ID law
“disparately impact[ed]” minority voters. Id. at 251,
252. But instead of asking whether the challenged
practice caused plaintiffs less opportunity to
participate, the Veasey court analyzed the burden in
relation to the “social and historical conditions” of
minorities, which is, of course, Senate Factor
evidence. Id. at 245; see id. at 313 (Jones, J.
dissenting) (“The majority’s opinion fundamentally
turns on a statistical disparity in ID possession
among different races, but instead of showing that
this disparity was caused by SB 14 [the voter ID law],
the majority relies on socioeconomic and historical
conditions as the causes of this disparity.”)
In Gonzalez v. Arizona, 677 F.3d 383 (9th Cir.
2012) (en banc), aff’d on other grounds sub nom. Ariz.
v. Inter Tribal Council of Ariz., Inc., 570 U.S. 1 (2013),
the Ninth Circuit addressed whether Arizona’s
Proposition 200 that required proof of U.S. citizenship
in order to register to vote violated Section 2’s results
standard. Id. at 388. In ruling against plaintiffs in
Gonzalez, the Ninth Circuit stated, “[A] § 2 challenge
‘based purely on a showing of some relevant
statistical disparity between minorities and whites,’
without any evidence that the challenged voting
qualification causes that disparity, will be rejected.”
Id. at 405, citing Smith v. Salt River Project
Agricultural Improvement & Power District, 109 F.3d

14
586, 595 (9th Cir. 1997) (emphasis added); see also,
Ruiz v. City of Santa Maria, 160 F.3d 543, 557 (9th
Cir. 1998) (per curiam); Gonzalez, 677 F.3d at 405
(“proof of ‘causal connection between the challenged
voting procedure and a prohibited discriminatory
result’ is crucial.”) (citation omitted).
The Ninth Circuit’s decision in Hobbs squarely
conflicts with its decisions in Salt River Project, Ruiz
and Gonzalez. One would have thought that, after
these three cases, it was clear in the Ninth Circuit
that plaintiffs in a Section 2 “results” case had to
prove that the challenged voting procedures caused
racial minorities to have “less opportunity to
participate” and “to elect representatives of their
choice.” However, the en banc majority in Hobbs,
while paying lip service to Section 2’s statutory
language and its own circuit precedents, chose not to
follow the existing framework for Section 2 vote
denial cases. Instead, it followed the reasoning of
Veasey and LWV in holding that disparate impact
plus Senate Factor evidence is sufficient to prove
discriminatory results for Section 2 claims. 948 F.3d
at 1043. To enforce Section 2 in this manner is, in
effect, to read the statutory language “less
opportunity . . . to participate in the political process
and to elect representatives of their choice” out of
Section 2.
Clearly, the law regarding a Section 2 results
claim in vote denial cases is in a considerable state of
confusion.

15
III.

Plaintiffs Failed To Prove That
Arizona’s Out-of-Precinct (OOP)
Rule Caused Minority Voters To
Have
Less
Opportunity
To
Participate In The Political Process
And To Elect Representatives Of
Their Choice.

The Arizona law restricting OOP voting is the
majority rule in this country. Thirty states have rules
that wholly disregard OOP ballots, and twenty states
partially count the votes in OOP ballots if the voter
was entitled to vote in specific elections on the ballot.
Hobbs, 948 F.3d at 1031.
Furthermore, the OOP rule affects a very small
group of Arizona voters. For example, in 2016 “of
those casting ballots in-person on election day,
approximately 99% of minority voters and 99.5% of
non-minority voters cast their ballots in their
assigned precincts.”
Hobbs, 948 F.3d at 1051
(O’Scannlain, J. dissenting). As noted by the en banc
majority, one in one hundred minority voters vote
OOP, while one in two hundred white voters vote
OOP. Id. at 1004-05, 1014. Of the very small number
of OOP voters, minority voters “were twice as likely
as white voters to vote out-of-precinct and not have
their votes counted.” Id. at 1014. (citation omitted).
The fundamental flaw in the en banc majority’s
conclusion that the OOP rule had a racial result is
that the record here contains no statistical or nonstatistical evidence showing: (1) which candidates in
local and state races in Arizona elections were

16
preferred by minority voters; 6 (2) the vote margins by
which those minority preferred candidates were
defeated; and (3) whether the number of minority-cast
OOP votes, if counted, was sufficient to have caused
the election to go in favor of the minority preferred
candidates. Without this type of specific evidence,
Plaintiffs utterly failed to carry their burden of
showing that minority preferred candidates were
defeated because of the rejection of minority cast OOP
ballots.
The en banc majority unsuccessfully attempted
to fill this vacuum in Plaintiffs’ evidence by pointing
to numerous other types of evidence, all irrelevant to
showing causation. Hobbs, 948 F.3d at 1013-16, 101731. None of this evidence is a substitute for the nonexistent evidence showing that the OOP rule caused
minority voters “to have less opportunity to
participate” and “to elect representatives of their
choice.” First, the en banc majority pointed to the fact
that “[v]oting in Arizona is racially polarized.” Id. at
1026. 7 Although admissible in Step Two as Senate
In Gingles, this Court stated that in identifying the
minority preferred candidates, it was “crucial to that inquiry” to
consider “the correlation between race of voter and the selection
of certain candidates.” 478 U.S. at 63. Moreover, according to
this Court, use of bivariate statistical analysis is appropriate in
Section 2 “results” cases to identify candidates preferred by
minority voters. Id. at 61, 63.
6

In support thereof, the en banc majority pointed to the
district court’s finding of polarized voting, Reagan, 329 F. Supp.
3d at 876, and to twelve elections in 2008 and 2010 found by an
unidentified entity to have been racially polarized. Id. at 1027.
Furthermore, the majority also noted that election polls taken at
the time of the 2016 general election indicated racial

7

17
Factor evidence, evidence of racially polarized voting
does not prove that the enforcement of the OOP
ballot-rejection rule caused minority voters’ preferred
candidates to be defeated. Those two issues—racially
polarized voting and causation—are separate and
distinct issues. The majority incorrectly believed that
the existence of polarized voting helped answer the
causation question, which it does not.
Second, the en banc majority “assumed” the
number of OOP ballots that were cast but not counted
in the 2016 election [3,709 statewide] were not de
minimus, reasoning that minority voters cast twice
the number of OOP ballots as white voters. Hobbs,
948 F.3d at 1015. If the majority’s assumptions are
correct, that would mean that in the 2016 election
2,475 minority OOP ballots and 1,234 white OOP
ballots were rejected in an election in which 2,661,497
total ballots were cast. See Reagan, 329 F. Supp. 3d.
at 856. But whether the minority-cast portion of the
discarded ballots is deemed de minimus or not misses
the point. Even if the minority-cast portion of the
3,709 OOP ballots is more than de minimis, such
evidence does not suggest, much less prove, that
enforcement of the OOP policy caused minorities not
to be able to elect candidates of their choice. Quite
simply, even if the adverse impact of the challenged
procedure were more than de minimus, this would not
be a substitute for the missing causation evidence.
polarization and that the Arizona Independent Redistricting
Commission had found racially polarized voting in one of nine of
Arizona’s congressional districts and in five of its thirty
legislative districts. Id.

18
Third, instead of analyzing how OOP ballot
rejections affected Arizona’s elections, the en banc
majority referred to the 2000 presidential election in
Florida. Hobbs, 948 F.3d at 1016. This election was
the only close election (537 votes) referenced by the
majority. Id. Clearly, what happened in Florida
almost two decades ago has no bearing on Arizona’s
elections or the two voting procedures challenged in
this case. Nothing in this Florida election in any way
addresses whether the use of the OOP rule in Arizona
elections causes minority voters to have “less
opportunity
to
participate”
and
“to
elect
representatives of their choice.”
Fourth, the en banc majority pointed to the fact
that “minorities make up 44% of Arizona’s total
population, but they hold 25% of Arizona’s elected
offices,” noting that “it is undisputed that American
Indian, Hispanic, and African American citizens are
underrepresented in public office in Arizona.” Hobbs
948 F.3d at 1029. The fact that racial minorities are
“underrepresented” in holding Arizona public offices
does not aid Plaintiffs in carrying their burden of
proving causation, and certainly does not show
whether the OOP rule has caused minority-preferred
candidates to lose. Accordingly, it would be strange
indeed if a statute, such as Section 2, with a specific
anti-proportional representation proviso, were
construed to mean that underrepresentation of
minorities in elected positions could serve as a
substitute for the critical causation evidence required
to show a Section 2 violation.

19
The en banc majority erred in finding
otherwise.
IV.

Plaintiffs Failed To Prove That
Arizona’s H.B. 2023 Procedure That
Restricts Ballot Collection and
Delivery By Third Parties Caused
Minority Voters To Have Less
Opportunity To Participate In The
Political Process And To Elect
Representatives Of Their Choice.

Prior to 2016, an unknown number of minority
voters used the assistance of third parties to collect
their early ballots and deliver them to election
officials more than white voters did. Hobbs, 948 F.3d
at 1005, 1006. In 2016, Arizona enacted legislation
known as H.B. 2023, which limited third party
collection and delivery of early ballots to a “family
member, house member, caregiver, United States
postal service worker” or other authorized officials.
Id. at 1048. (O’Scannlain, J. dissenting).
Plaintiffs’ attempts to prove that this Arizona
procedure restricting collection and delivery of early
ballots caused minority-preferred candidates to lose
were even less persuasive than their showing
regarding the OOP policy. Plaintiffs’ evidence on this
point consisted almost entirely of testimony that,
prior to the enactment of H.B. 2023, “third parties
collected a large and disproportionate number of early
ballots from minority voters.” Hobbs, 948 F.3d at
1032. Witnesses “testified . . . to having personally
collected, or to having personally witnessed the
collection of, thousands of early ballots from minority

20
voters.” Id. at 1032. But Plaintiffs provided no
evidence of specific numbers of ballots cast with
assistance.
Id. at 1005-06.
Importantly, no
individual voter testified that these ballot-collection
and delivery restrictions made it “significantly more
difficult to vote.” Id. at 1055 (O’Scannlain, J.
dissenting). “[A]necdotal evidence of how voters have
chosen to vote in the past does not establish that
voters are unable to vote in other ways or would be
burdened by having to do so.” Id.
The en banc majority pointed to no testimonial
or documentary evidence comparing the number of
early ballots delivered to election officials by third
parties before and after enactment of H.B. 2023. The
majority, citing only testimonial evidence of a “large
and disproportionate number of” assisted early
ballots from minority voters, then “found that “[n]o
better evidence was required.” Hobbs, 948 F.3d at
1033. The majority then went on to hold that “H.B.
2023 results in a disparate burden on minority
voters,” and “that Plaintiffs [had] succeeded at step
one of the results test.” Id. at 1033.
In addition, Plaintiffs made no showing
concerning whether the enforcement of the
challenged H.B. 2023 restrictions caused minoritypreferred candidates to lose elections, an error fatal
to Plaintiffs’ Section 2 results claim. As Judge
O’Scannlain stated in his dissent, quoting Gingles, at
48 n.15, 8 “It is obvious that unless minority group

The en banc majority attempts to diminish the impact of
this language in Gingles by pointing out that Gingles was a vote

8

21
members experience substantial difficulty electing
representatives of their choice, they cannot prove that
a challenged electoral mechanism impairs their
ability ‘to elect.’” Hobbs, 948 F.3d at 1051. Clearly,
Plaintiffs in this case did not prove the causation
element. They did not show that the ballot-collection
policy caused the defeat of any minority-preferred
candidates.
By way of example, a persuasive showing that
the restrictions of H.B. 2023 were causing minority
voters “substantial difficulty” electing their preferred
candidates might have included evidence: (1)
identifying minority preferred candidates who ran
and lost in Arizona elections since the 2016
enactment of H.B. 2023; (2) showing how many
minority voters who were entitled to vote in those
elections did not vote because of restrictions on thirdparty assistance; and (3) showing that, if this number
of minority voters had cast a ballots for the minoritypreferred candidates, those votes would have caused
those preferred candidates to win. Without a showing
of this kind, plaintiffs in Section 2 results claims
cannot carry their burden of proof in Step One.
In the clear language of Section 2, Plaintiffs
were required to prove that the restrictions on thirddilution case under Section 2, and not a vote denial case as this
one is. Hobbs, 948 F.3d at 1043-44. However, legal precedents
in the Ninth Circuit stand for the proposition that the standards
for proving a discriminatory result claim under Section 2 are
very similar, if not the same, regardless of whether the case
involves a vote denial or a vote dilution claim. See e.g., Salt River
Project, 109 F.3d at 596 n. 8; and Gonzalez, 677 F.3d at 405 n.
32.

22
party assistance resulted in denying minority voters
an “opportunity to participate” and “to elect
representatives of their choice.”
However, in
explaining why it found that Plaintiff had satisfied its
burden of proof, the en banc majority did not point to
any elections in which minority preferred candidates
were defeated because of the restrictions in the ballotcollection policy. Hobbs, 948 F.3d at 1032-33. See
also, id. at 1056 (“Thus, from the record, we do not
know either the extent to which voters may be
burdened by the ballot-collection policy or how many
minority voters may be so burdened.”) (O’Scannlain.
J dissenting).
Importantly, the en banc majority stated that
a, “particular connection to statewide office does not
exist between H.B. 2023 and election of minorities.” 9
Hobbs, 948 F.3d at 1035. However, the majority here
went on to opine that H.B. 2023 is “likely to have a
pronounced effect in rural counties with significant”
racial minority populations. Id. The majority in
Hobbs further opined that discriminatory results
under Section 2 would more likely occur in counties
that “lack reliable” mail and transportation services,
“and where a smaller number of votes can have a
significant impact on election outcomes.” Id. Such
observations by the en banc majority are not
The en banc majority’s conclusion that H.B. 2023’s
restrictions do not have a discriminatory result in Arizona’s
statewide elections has important ramifications for this case. It
would mean that, even though the ballot-collection and delivery
restrictions are not violative of the Section 2 results standard in
statewide elections, Arizona would nevertheless be enjoined
from enforcing the restrictions in such elections as well as in
local elections.
9

23
supported by evidence in the record. Plaintiffs’
failures of proof concerning the alleged discriminatory
results of H.B. 2023’s restrictions cannot be corrected
by appellate court conjecture.
Accordingly, the
majority’s speculation about what may occur in
smaller counties does not cure Plaintiffs’ failure of
proof.
Moreover, in its inquiry concerning the legality
of H.B. 2023, the en banc majority gave great weight
to the fact that “no one has ever found a case of voter
fraud connected to third-party ballot collection in
Arizona.” Hobbs, 948 F.3d at 1035. But this misses
the mark. In Crawford, 553 U.S. at 195-96, this Court
rejected a challenge to an Indiana law that required
voters to provide a photo ID if voting at the polls. Id.
In doing so it also rejected the argument that actual
evidence of voter fraud was needed to justify a state’s
decision to enact prophylactic laws aimed at
preventing voter fraud:
The record contains no evidence of any
such [in-person voter] fraud actually
occurring in Indiana at any time in its
history. . . . It remains true, however,
that flagrant examples of such fraud in
other parts of the country have been
documented throughout this Nation’s
history by respected historians and
journalists, . . . demonstrate[ing] that
not only is the risk of voter fraud real
but that it could affect the outcome of a
close election.
Id. at 194-96. (footnotes omitted)

24
Crawford went on to recognize that while
protecting public confidence in the “legitimacy of
representative government” is “closely related to the
State’s interest in preventing voter fraud, public
confidence in the integrity of the electoral process has
independent significance.” Id. at 197. Unregulated
collection of third-party ballots can undermine public
confidence in the integrity of elections. This is
demonstrated by the ballot collection fraud that
recently occurred in North Carolina in 2018. 10
Arizona’s interest in preventing voter fraud
and protecting public confidence in the electoral
process provided two legitimate bases for enacting
anti-fraud election regulations, such as H.B. 2023,
without any direct evidence that ballot-collection
fraud had been committed in the State. The en banc
majority’s failure to “even mention Crawford” in its
opinion may indicate that it overlooked Crawford and
did not “grapple with its consequences on this case.”
Hobbs, 948 F.3d at 1059. (O’Scannlain, J. dissenting).
The majority failed to recognize that Crawford clearly
indicated that states do not have to have evidence of
voter fraud to enact prophylactic statutes against
fraud. That failure caused the majority to place
undue importance on the lack of such evidence in this
case. The majority erred in believing that the lack of
voter fraud evidence weighed in favor of Plaintiffs’
See “Election Fraud in North Carolina Leads to New
Charges for Republican Operative,” The New York Times,
available at https://www.nytimes.com/2019/07/30/us/mccraedowless-indictment.html.
10

25
Section 2 results claims. Certainly, a lack of voter
fraud evidence does not replace the evidence that is
missing—proof of causation.
The en banc Ninth Circuit erred in finding
otherwise.
CONCLUSION
Amici curiae respectfully request that this Court
grant Petitioners’ writ of certiorari.
Respectfully submitted,
ROBERT D. POPPER
T. RUSSELL NOBILE
ERIC W. LEE
JUDICIAL WATCH, INC.
425 Third Street, SW
Suite 800
Washington, DC 20024
(202) 646-5172

H. CHRISTOPHER COATES
Counsel of Record
LAW OFFICES OF H.
CHRISTOPHER COATES
934 Compass Point
Charleston, South
Carolina 29412
Phone: (843) 609-7080
curriecoates@gmail.com

